No. 20-845
In the

Supreme Court of the United States
___________
DONALD J. TRUMP FOR PRESIDENT, INC.,
Petitioner,
v.
KATHY BOOCKVAR, SECRETARY OF THE
COMMONWEALTH OF PENNSYLVANIA, et al.,
Respondents.
___________
On Writ of Certiorari to the
Pennsylvania Supreme Court
___________
REPLY TO SECRETARY BOOCKVAR’S RESPONSE IN OPPOSITION
TO THE MOTION FOR EXPEDITED CONSIDERATION
OF ТНЕ PETITION FOR А WRIT OF CERTIORARI
___________
Bruce S. Marks
Marks & Sokolov, LLC
1835 Market St., #1717
Philadelphia, PA 19103
(215) 569-8901
Marks@mslegal.com

John C. Eastman
Counsel of Record
174 W. Lincoln Ave, #620
Anaheim, CA 92805
(909) 257-3869
Jeastman562@gmail.com
Counsel for Petitioner

Of the 70 Respondents served in this case, only Kathy Boockvar, Secretary of
the Commonwealth of Pennsylvania – the person most responsible for the events
which led up to the egregious violations of Article II of the Constitution detailed in
the Petition – filed opposition to the Motion for Expedited Consideration. Tellingly,
the Secretary does not dispute the main contentions in the Petition for Writ of
Certiorari, namely, that she and other officials in Pennsylvania—both executive and
judicial—ignored or altered provisions of Pennsylvania election law, in violation of
Article II of the Constitution. And she does not address Petitioner’s contention that 3
U.S.C. § 2 provides a remedy when a state has “failed” to choose electors according to
the “manner” set out by the state legislature. Instead, most of the opposition – filed
by Democrat Pennsylvania Attorney General Shapiro, a vocal opponent of President
Trump – consists of extraneous, political attacks on the President and his legal
strategy. The non-political points asserted by the Secretary have no merit. And the
Secretary’s remaining contentions simply assume the very thing in dispute, namely,
whether the electors that have been certified in Pennsylvania were actually chosen
by the voters of the state in accord with the election laws adopted by the Legislature.
The Petition Is Timely
The Petition was timely filed and expedited relief is warranted. As explained
in the Motion, the timing of the Petition was affected by cases pending in this Court;
ultimately, one was dismissed (Texas)1 and one not acted upon (Kelly). In addition,

The Secretary claims that the President’s motion to intervene in the Texas
“implicitly recognized that Texas lacked standing.” Not true. As the Third Circuit
1
1

until the Petition was filed on December 20, 2020, it was not clear that Pennsylvania’s
20 electoral votes could turn the election. Now, with critical additional filings related
to Wisconsin and Georgia, it is clear that the presidential election will turn on
whether this Court acts, and does so in an expedited basis.
Petitioner has filed petitions for certiorari in this Court challenging 20
electoral votes in Pennsylvania and 10 electoral votes in Wisconsin based on
violations of Article II of the U.S. Constitution, and seeks the remedy that the
legislatures of those states be allowed to appoint their electors pursuant to 3 U.S.C.
§ 2.2 In addition, Petitioner has filed suit in the Northern District of Georgia, claiming
that Georgia’s presidential election violated Article II, and seeks the remedy that the
Georgia Legislature be allowed to appoint its 16 electors pursuant to 3 U.S.C. § 2.
Taken together, the two petitions and the Georgia suit challenge 46 electoral votes,
more than enough to change the outcome of this election if those states’ legislatures
appoint electors in favor of President Trump. It is now a matter of extreme urgency

has recognized, “A motion for intervention … is not an appropriate device to cure a
situation in which plaintiffs may have stated causes of action that they have no
standing to litigate.” McClune v. Shamah, 593 F.2d 482, 486 (3d Cir. 1979); see also
Fuller v. Volk, 351 F.2d 323, 328 (3d Cir. 1965) (“intervention will not be permitted
to breathe life into a ‘nonexistent’ lawsuit”). The reason Petitioner sought to
intervene in the Texas case was because, had this Court accepted Texas’s arguments
on standing, the case would have provided an opportunity for this Court to consider
in a single action the Article II violations that occurred in four states whose electoral
votes are outcome determinative.
Section 2 provides: “Whenever any State has held an election for the purpose of
choosing electors, and has failed to make a choice on the day prescribed by law, the
electors may be appointed on a subsequent day in such a manner as the legislature
of such State may direct.” 3 U.S.C. § 2.
2

2

that this Court hear this case, as well as the related Wisconsin case and anticipated
appeal from the Georgia case, to decide critical issues under Article II and 3 U.S.C.
§ 2, which will determine who will serve as the President and Vice President for the
next four years.
First, on December 20, 2020, the Petitioner filed its petition for certiorari
contending that a trio of Pennsylvania Supreme Court decisions — including one
decided on November 23, 2020, nearly three weeks after the election — governing the
November 3, 2020, presidential election violated Article II of the Constitution, and
seeking as a remedy that the Pennsylvania Legislature be allowed to appoint its 20
electors.
Second, on December 29, 2020, President Trump and Vice President Pence, in
their capacity as candidates, and their Campaign, filed their petition for certiorari
challenging a Wisconsin Supreme Court decision which denied a challenge to the
November 3, 2020, presidential election in violation of Article II. See Donald J.
Trump, et al. v. Joseph R. Biden, et al. (Case No. __) (cert. petition filed December 29,
2020). That petition seeks a declaration that the Wisconsin election failed within the
meaning of 3 U.S.C. § 2 and seeks the remedy that the Wisconsin Legislature be
allowed to appoint its 10 electors.
Thereafter, on December 30, 2020, Donald J. Trump, in his capacity as
candidate for President, filed a petition for certiorari challenging a Seventh Circuit
Court of Appeals decision, which asserted that Wisconsin’s November 3, 2020
presidential election failed, and sought a remedy that the Wisconsin Legislature
3

appoint its 10 electors. See Donald J. Trump v. Wisconsin Elections Commission, et
al. (Case No. __) (cert. petition filed December 30, 2020).
Third, on December 31, 2020, President Trump, in his capacity as a candidate,
filed suit in federal court in Georgia, asserting that its November 3, 2020 presidential
election failed because, inter alia, Georgia has refused to provide a judge to hear his
December 4, 2020 election contest in violation of Article II, 3 U.S.C. § 2, and Due
Process. In that case, Plaintiff seeks a preliminary injunction setting aside the
certification of Georgia’s electors and the remedy that the Georgia Legislature be
allowed to appoint its 16 electors. See Donald J. Trump v. Brian P. Kemp, et al. (Case
No. __) (N.D.Ga. Dec. 31, 2020).

It is expected that whichever side loses the

preliminary injunction motion will appeal to the Eleventh Circuit Court of Appeals,
from which this Court may grant certiorari pursuant to S. Ct. Rules 21, 23, and 17.2
and FED. R. CIV. P. 65.
All told, the two petitions for certiorari and the Georgia suit challenge 46
electoral votes. If the Legislatures are permitted to appoint those electors and do so
in favor of Petitioner, President Trump will win this election. It is thus a matter of
national importance and urgency that this Court hear this case, as well as the related
Wisconsin petitions, and likely appeal from Georgia, before Congress convenes on
January 6, 2021 to begin counting electoral votes, pursuant to 3 U.S.C. § 15, in order
for the President and Vice President to be determined by Inauguration Day on
January 20 (U.S. CONST. amend. XX, § 1), to avoid the disruption that would be
caused if the office is left vacant and an Acting President temporarily fills the post,
4

and to avoid the possibility that a President might actually be inaugurated on the
basis of an out-come determinative number of illegally-counted votes.
The Seventh Circuit’s Seminal Opinion on Relief
Subsequent to the filing of the Petition and Motion to Expedite, the Seventh
Circuit ruled in the case which is now pending before this Court on a petition for writ
of certiorari. Critically, while the Circuit ruled against the President on laches and
in dicta on other issues, it affirmed his right to meaningful relief under 3 U.S.C. § 2,
holding:
… [T]he President’s complaint can be read as … requesting a declaration
that the defendants’ actions violated the Electors Clause and that those
violations tainted enough ballots to “void” the election. Were we to grant
the President the relief he requests and declare the election results void,
the alleged injury—the unlawful appointment of electors—would be
redressed. True, our declaration would not result in a new slate of
electors. But the fact that a judicial order cannot provide the full extent
or exact type of relief a plaintiff might desire does not render the entire
case nonjusticiable. See Church of Scientology v. United States, 506 U.S.
9, 12–13 (1992). A favorable ruling would provide the opportunity for
the appointment of a new slate of electors. From there, it would be for
the Wisconsin Legislature to decide the next steps in advance of
Congress’s count of the Electoral College’s votes on January 6, 2021. See
3 U.S.C. § 15.
Trump v. Wis. Elections Comm'n, No. 20-3414, 2020 U.S. App. LEXIS 40360, at *1011 (7th Cir. Dec. 24, 2020).
Thus, if this Court follows the Seventh Circuit’s holding, the President would
have the opportunity to obtain meaningful relief, i.e., to have the elections in
Pennsylvania, as well as Wisconsin and Georgia, declared “failed” and allow the
legislatures of those states to appoint electors in accord with the number of legal votes
5

cast at the November 3 election, electors whose votes could then be counted for the
President when Congress begins its proceedings on January 6, 2021. Thus, for this
additional reason, the Motion to Expedite should be granted.
Respectfully submitted this 31st day of December, 2020.
Bruce S. Marks
Marks & Sokolov, LLC
1835 Market St., #1717
Phil., PA 19103
(215) 569-8901
Marks@mslegal.com

John C. Eastman
Counsel of Record
174 W. Lincoln Ave, #620
Anaheim, CA 92805
(909) 257-3869
Jeastman562@gmail.com
Counsel for Petitioner

6

